No. ________________

In the

Supreme Court of the United States
George Larsen, Petitioner
v.
United States of America, Respondent
On Petition for a Writ of Certiorari to
the United States Court of Appeals for
the Ninth Circuit

Certificate of Word Count
Under Rule 33.1(h) of the Rules of this Court, I, Kurt David Hermansen,
a member of the Bar of this Court, certify that the accompanying Petition for
Writ of Certiorari, which was prepared using Century Schoolbook 13-point
typeface, contains 2,160 words, excluding the parts of the document that are
exempted by Rule 33.1(d). This certificate was prepared in reliance on the
word-count function of the word-processing system (Microsoft Word 2016) used
to prepare the document.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on November 4, 2020

Kurt David Hermansen
Counsel of Record
Assistant Federal Public Defender
859 Willamette St., Ste. 200
Eugene, OR 97401
(541) 465-6937
Kurt_Hermansen@fd.org

